TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Additional Steps Need to Be Completed to
                    Ensure the Success of the Service-wide
                               Non-filer Strategy



                                      September 22, 2008

                               Reference Number: 2008-30-165




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 22, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Additional Steps Need to Be Completed to Ensure
                                the Success of the Service-wide Non-filer Strategy
                                (Audit # 200830012)

 This report presents the results of our review of the progress the Internal Revenue Service’s
 (IRS) Small Business/Self-Employed Division has made in identifying non-filers1 and
 determining what potential new data sources for detecting non-filers and other forms of
 underreporting have been investigated that could assist in that effort. This report identifies
 additional steps the IRS needs to take to ensure the success of its Service-wide Non-filer
 Strategy. This audit was included in the Treasury Inspector General for Tax Administration
 Fiscal Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 Individuals, businesses, and other taxable entities with income more than certain threshold
 amounts are required to file income tax returns. The timely filing of required tax returns is
 critical to the United States income tax system. The IRS considers non-filing to be an egregious
 problem because it contributes to the tax gap2 and can cause compliant taxpayers to lose faith in
 the fairness of the tax system. Therefore, it is important that the IRS establish measurable
 program goals and a systemic method to track and monitor cases worked as part of the
 Service-wide Non-filer Strategy initiatives and explore the costs/benefits of purchasing


 1
   Individual non-filers are taxpayers legally required to file, for whom returns have not been filed by the due dates or
 extended due dates of the returns. Business non-filers are entities that have filing requirements, for which returns
 have not been received by the due dates or extended due dates of the returns, and are usually 90 days past due.
 2
   The tax gap is the difference between taxes that are legally owed and taxes that are paid on time.
                  Additional Steps Need to Be Completed to Ensure the Success of
                                 the Service-wide Non-filer Strategy



agreements with private external data sources as a more cost-effective approach to taxpayer
outreach and education to address chronic and unknown non-filers.

Synopsis
In response to a prior Treasury Inspector General for Tax Administration audit report,3 the IRS
agreed to develop a Service-wide Non-filer Strategy4 to coordinate and track all efforts taken to
plan, control, and improve efficiency in identifying and working non-filer cases. The goal of this
strategy is to ensure that IRS resources are used effectively to bring non-filers into the tax
system, ensure future compliance, and reduce the portion of the $345 billion tax gap attributable
to non-filers.5 As part of this strategy, the IRS was to establish measurable program goals,
develop an organization-wide tracking system to monitor progress, and leverage technology and
research capabilities to increase the use of third-party information to identify unknown non-filers
and improve non-filer case selection. In addition, the IRS was to partner with external sources to
develop and implement effective outreach and education actions to reduce the number of chronic
non-filers and allocate compliance resources accordingly.
The IRS should be commended for carrying out many of the steps necessary for the development
of the Service-wide Non-filer Strategy. However, additional steps need to be completed if the
Strategy is to be fully implemented within the time period originally planned. We found that
Service-wide non-filer outcome and performance measures were not yet approved and adopted.
Without measurable program goals, management will be unable to determine the effectiveness
and achievements of non-filer efforts. In addition, there was no systemic method in place to
track and monitor cases that are worked as part of Service-wide Non-filer Strategy Initiatives.
Without such a tracking system, results cannot be captured and used for future planning, and cost
benefit analyses cannot be performed.
During our review, we tried to identify any potential new/external data sources that were being
used (or were planned to be used) by the IRS for taxpayer outreach and education as part of the
Service-wide Non-filer Strategy to address chronic and unknown non-filers. While IRS
management pointed to the use of external data obtained from the State Reverse File Match
Initiative6 and other State-provided data7 as examples of their use of third-party data to identify


3
  The Internal Revenue Service Needs a Coordinated National Strategy to Better Address an Estimated $30 Billion
Tax Gap Due to Non-filers (Reference Number 2006-30-006, dated November 2005).
4
  The Small Business/Self-Employed Division was given responsibility for development, coordination, and
oversight of the strategy.
5
  Individual non-filers accounted for approximately $30 billion of the estimated $345 billion tax gap in Tax
Year 2001. The portion of the tax gap attributed to business non-filers is unknown.
6
  The State Reverse File Match Initiative involves the use of State return tax information to identify Federal return
non-filers.
7
  One example would be the State of California Franchise Tax Board.
                                                                                                                        2
                    Additional Steps Need to Be Completed to Ensure the Success of
                                   the Service-wide Non-filer Strategy



non-filers, the initiatives appear to be limited in scope. The IRS does not currently participate in
any purchasing agreements with private external data sources.8 The use of such agreements
might result in a more targeted, cohesive approach to taxpayer outreach and education, while
helping the IRS achieve its mission.

Recommendations
We recommended that the Deputy Commissioner for Services and Enforcement 1) establish
Service-wide Non-filer Strategy outcome and performance measures, 2) develop a Service-wide
systemic method to track and monitor cases selected to be worked as part of non-filer initiatives,
and 3) explore the costs/benefits of purchasing agreements with private external data sources and
determine whether such contracts could result in a more cost-effective approach to taxpayer
outreach and education as part of the Service-wide Non-filer Strategy to address chronic and
unknown non-filers.

Response
IRS management agreed with all of the recommendations. The IRS has developed outcome and
performance measures. In addition, IRS management will assess whether current systems can be
enhanced to track, monitor, and capture results for cases that are worked as part of the
Service-wide Non-filer Strategy Initiatives and, if not feasible, will determine the cost for
developing an enterprise system. The IRS also agreed to explore which private data sources
would enhance available internal research and determine the costs/benefits of using these private
data sources. Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




8
    For example, direct mail data providers and information resellers.
                                                                                                   3
                    Additional Steps Need to Be Completed to Ensure the Success of
                                   the Service-wide Non-Filer Strategy




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Service-wide Non-filer Outcome and Performance Measures Have Not
          Been Adopted ...............................................................................................Page 3
                    Recommendation 1:..........................................................Page 4

          A Systemic Method to Track and Monitor Cases That Are Part
          of Service-wide Non-filer Strategy Initiatives Is Not in Place .....................Page 4
                    Recommendation 2:..........................................................Page 5

          The Internal Revenue Service Should Explore the Use of New
          Data Sources for Taxpayer Outreach and Education....................................Page 6
                    Recommendation 3:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV- Management’s Response to the Draft Report........................Page 13
        Additional Steps Need to Be Completed to Ensure the Success of
                       the Service-wide Non-Filer Strategy




                        Abbreviations

BMF               Business Master File
IRS               Internal Revenue Service
NFEAC             Non-filer Executive Advisory Council
SB/SE             Small Business/Self-Employed
TIGTA             Treasury Inspector General for Tax Administration
                  Additional Steps Need to Be Completed to Ensure the Success of
                                 the Service-wide Non-Filer Strategy




                                              Background

After the reorganization of the Internal Revenue Service
(IRS) in 2002, management was left with no formal                         The goal of the IRS Service-wide
                                                                            Non-filer Strategy is to ensure
system in place for coordinating and tracking the various                    that IRS resources are used
non-filer1 actions taking place across all IRS divisions.                   effectively to bring non-filers
                                                                              into the tax system, ensure
The Treasury Inspector General for Tax Administration                      future compliance, and reduce
(TIGTA) issued a report,2 which pointed out that the IRS                    the portion of the $345 billion
needed a coordinated Service-wide Non-filer Strategy in                   tax gap attributable to non-filers.
order to increase voluntary compliance, reduce the tax
gap,3 and ensure that resources were being used
effectively to bring non-filers into the tax system.
IRS management accepted the report’s recommendations and agreed to develop a Service-wide
Non-filer Strategy to coordinate and track all efforts taken to plan, control, and improve
efficiency in identifying and working non-filer cases. The goal of this strategy is to ensure that
IRS resources are used effectively to bring non-filers into the tax system, ensure future
compliance, and reduce the portion of the $345 billion tax gap attributable to non-filers.4 As part
of this strategy, the IRS was to establish measurable program goals,5 develop an
organization-wide tracking system to monitor progress, and leverage technology and research
capabilities to increase the use of third-party information to identify unknown non-filers and
improve non-filer case selection. In addition, the IRS was to partner with external sources to
develop and implement effective outreach and education actions to reduce the number of chronic
non-filers and allocate compliance resources accordingly.
This review was performed at the IRS Brookhaven Campus6 in Holtsville, New York, and the
IRS National Headquarters in Washington, D.C., and included interviews and discussions with
various IRS management and staff affiliated with the Service-wide Non-filer Strategy during the


1
  Individual non-filers are taxpayers legally required to file, for whom returns have not been filed by the due dates or
extended due dates of the returns. Business non-filers are entities that have filing requirements, for which returns
have not been received by the due dates or extended due dates of the returns, and are usually 90 days past due.
2
  The Internal Revenue Service Needs a Coordinated National Strategy to Better Address an Estimated $30 Billion
Tax Gap Due to Non-filers (Reference Number 2006-30-006, dated November 2005).
3
  The tax gap is the difference between taxes that are legally owed and taxes that are paid on time
4
  Individual non-filers accounted for approximately $30 billion of the estimated $345 billion tax gap in Tax
Year 2001. The portion of the tax gap attributed to business non-filers is unknown.
5
  For example, number of returns secured from non-filers, total payments received, recidivism (repeater) rate, etc.
6
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                               Page 1
                 Additional Steps Need to Be Completed to Ensure the Success of
                                the Service-wide Non-Filer Strategy



period November 2007 through June 2008.7 We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.
The scope of our work was limited because Service-wide Non-filer outcome and performance
measures were not established, and there was no systemic Service-wide tracking method in place
to monitor non-filer cases by the end of our field work. Therefore, we could not make a
determination as to the effectiveness or potential effectiveness of any current or future non-filer
initiatives. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




7
 The members of management and staff contacted during this review included individuals from Small
Business/Self-Employed Division Research, Campus Compliance Services, Planning and Performance
Management, and Collection functions, Criminal Investigation Division, and the Office of Chief Counsel.
                                                                                                          Page 2
                 Additional Steps Need to Be Completed to Ensure the Success of
                                the Service-wide Non-Filer Strategy




                                     Results of Review

Service-wide Non-filer Outcome and Performance Measures Have Not
Been Adopted
Although the Service-wide non-filer outcome and performance measures were scheduled to be in
place for Fiscal Year 2008, the IRS Enforcement Committee had not approved and adopted such
measures as of May 2008. Without the establishment of Service-wide non-filer outcome and
performance measures, program goals cannot be set and the effectiveness or potential
effectiveness of Service-wide non-filer initiatives cannot be assessed.

The IRS Enforcement Committee must approve and adopt Service-wide non-filer
outcome and performance measures
The IRS Enforcement Committee8 governs the Service-wide Non-filer Strategy, which is an
effort involving all of the Service’s operating divisions. The Enforcement Committee chartered
a Service-wide Non-filer Executive Advisory Council (NFEAC), which consists of
representatives from all IRS divisions and serves as a principal advisory board to the
Enforcement Committee. The NFEAC reports to the Enforcement Committee and is responsible
for developing, monitoring, and measuring the effectiveness of the Service-wide Non-filer
Strategy across all IRS divisions. The Enforcement Committee must approve and adopt any
Service-wide non-filer outcome and performance measures submitted to them by the NFEAC
before such measures can be implemented.
The Enforcement Committee and the NFEAC should be commended for carrying out many of
the steps necessary for the development of the Service-wide Non-filer Strategy. However, the
Enforcement Committee needs to establish Service-wide non-filer outcome and performance
measures so that measurable program goals9 can be set for the Service-wide Non-filer Strategy
initiatives and to ensure that the strategy can be fully implemented by the Fiscal Year 2009
deadline. Without outcome and performance measures and measurable program goals,
management is unable to determine whether efforts to improve program efficiency and
effectiveness are achieving desired results and whether IRS resources are being used in the most
effective and efficient manner to bring non-filers into the tax system, ensure future compliance,
and reduce the tax gap.


8
  The IRS Enforcement Committee is chaired by the Deputy Commissioner for Services and Enforcement.
9
  For example, the prior TIGTA report suggested that such measurable goals could be the number of returns secured
from non-filers, total payments received, and the recidivism (repeater) rate of non-filers.
                                                                                                         Page 3
                 Additional Steps Need to Be Completed to Ensure the Success of
                                the Service-wide Non-Filer Strategy



The Government Performance and Results Act of 199310 requires that plans have
outcome-related goals and objectives
The Government Performance and Results Act requires that plans have general goals and
objectives, including outcome-related goals and objectives. It also requires a description of how
the goals and objectives will be achieved, skills and technology required, and human capital
information and other resources required. The establishment of Service-wide outcome and
performance measures for the Non-filer Strategy is necessary for the IRS to be in compliance
with Government Performance and Results Act requirements.

Recommendation
Recommendation 1: To ensure that IRS resources are being used in the most effective and
efficient manner to bring non-filers into the tax system and achieve full implementation of the
Service-wide Non-filer Strategy in all operating divisions by Fiscal Year 2009, the Deputy
Commissioner for Services and Enforcement should establish Service-wide non-filer outcome
and performance measures so that program goals can be set.
        Management’s Response: IRS management agreed with the recommendation and
        has developed outcome and performance measures.

A Systemic Method to Track and Monitor Cases That Are Part of
Service-wide Non-filer Strategy Initiatives Is Not in Place
As of May 2008, there was no systemic method in place to track and monitor cases that are
worked as part of Service-wide Non-filer Strategy Initiatives. Without such a tracking system,
results cannot be captured and used for future planning, and cost benefit analyses cannot be
performed.
In an earlier TIGTA report,11 the IRS was advised to develop a Service-wide tracking system to
ensure effective coordination, monitoring, and successful completion of each business division’s
Non-filer Strategy objectives. Management agreed that they did not have a formal system in
place to monitor the progress of each business division’s Non-filer Strategy action items or
changes to each business division’s non-filer plans. The Collection Governance Council, under
the auspices of the NFEAC, developed a cross-functional action plan that included names of
responsible individuals and the status of action items with respect to the development of the
Service-wide Non-filer Strategy.


10
   Pub. L. No. 103-62, 107 Stat 285 (codified as amended in scattered section of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
11
   The Internal Revenue Service Needs a Coordinated National Strategy to Better Address an Estimated $30 Billion
Tax Gap Due to Non-filers (Reference Number 2006-30-006, dated November 2005).
                                                                                                         Page 4
                    Additional Steps Need to Be Completed to Ensure the Success of
                                   the Service-wide Non-Filer Strategy



However, while such an action plan offers details with respect to the development and
implementation of the Non-filer Strategy, it does not provide for a systemic means to capture the
results of actual cases that are selected as part of the different Service-wide Non-filer Initiatives.
We could not obtain any information on whether management planned to systemically identify,
track, and monitor such cases on a Service-wide level and who would be responsible for ensuring
that such a method was developed and implemented. Moreover, documents obtained during this
review did not clarify this issue.

Effective internal controls require the performance measurement of ongoing
program accomplishments
Under the Government Performance and Results Act, performance measurement is defined as
the ongoing monitoring and reporting of program accomplishments. In order to ascertain a
program’s accomplishments, and to accurately measure the results of the Service-wide Non-filer
Strategy Initiatives, the IRS needs a systemic means by which they can track and monitor cases
that are worked as part of non-filer initiatives. The results can be fed into a Service-wide
non-filer measurement system that would provide an individual and aggregate measure of the
effectiveness of IRS programs undertaken to improve the voluntary compliance levels of
non-filers across the business divisions.
The development of such a systemic tracking and monitoring method would also be consistent
with Office of Management and Budget Circular A-12312 requirements for effective internal
controls to ensure that programs operate and resources are used efficiently and effectively to
achieve desired objectives.

Recommendation
Recommendation 2: To ensure that the IRS can track, monitor, and capture results for cases
that are worked as part of Service-wide Non-filer Strategy Initiatives and enable management to
determine whether resources are being used in the most effective and efficient manner to bring
non-filers into the tax system, we recommend that the Deputy Commissioner for Services and
Enforcement develop a systemic method to track and monitor such cases.
           Management’s Response: IRS management agreed with this recommendation. The
           Director, Collection, Small Business/Self-Employed (SB/SE) Division, will assess
           whether current systems can be enhanced and, if not feasible, will determine the cost for
           developing an enterprise system.




12
     Circular A-123, Management’s Responsibility for Internal Control (revised December 2004).
                                                                                                 Page 5
                 Additional Steps Need to Be Completed to Ensure the Success of
                                the Service-wide Non-Filer Strategy



The Internal Revenue Service Should Explore the Use of New Data
Sources for Taxpayer Outreach and Education
According to the Service-wide Non-filer Strategy Vision Statement, the IRS plans to leverage
technology and research capabilities to increase the use of third-party information to identify
unknown non-filers and improve non-filer case selection and resolution. In addition, the IRS
plans to partner with external sources to develop and implement effective outreach and education
actions to reduce the number of chronic non-filers and allocate compliance resources
accordingly. The IRS does not currently participate in any purchasing agreements with private
external data sources.13 As part of the Service-wide Non-filer Strategy, the IRS should explore
the costs/benefits of participating in purchase agreements with private external data sources14 and
determine whether such contracts would result in a more targeted and cohesive approach to
taxpayer outreach and education, while also helping the IRS to achieve its mission.

The term “non-filers” was defined as part of the Service-wide Non-filer Strategy
Section 6012 of the Internal Revenue Code15 requires individuals, businesses, and other taxable
entities with income above certain threshold amounts to file income tax returns. The filing of
required tax returns in a timely manner is critical to the United States’ system of voluntary
compliance. The IRS considers non-filing to be an egregious problem because it contributes to
the tax gap and can cause compliant taxpayers to lose faith in the fairness of the tax system.
One of the first challenges facing IRS management when they began to develop a Service-wide
Non-filer Strategy was to define the term “non-filer,” and then further divide taxpayers falling
under the definition into sub-categories. For purposes of the Service-wide Non-filer Strategy,
individual non-filers were defined as individuals who were legally required to file and for whom
returns had not been filed by the due dates of the returns or extended due dates.16
The IRS identifies individual non-filers by using historical filing information and third-party
data. For example, the IRS requires employers, financial institutions, and other business entities
to submit income and various other types of tax-related information. Individual non-filers are
identified when third-party data for a tax year cannot be matched with a return for that year. In
March 2005, the IRS reported that individual non-filers accounted for an estimated $30 billion of
the total tax gap for Tax Year 2001.17


13
   For example, direct mail data providers and information resellers.
14
   Address information is currently purchased by the IRS Collection function through a contract with ACCURINT.
15
   I.R.C. Section 6012 (2004).
16
   Sub-categories of individual non-filers include repeat non-filers, high-income non-filers, underreporters, and
underpayers.
17
   This study, conducted by the IRS National Headquarters Office of Research, Analysis, and Statistics released in
March 2005, provided numbers estimated for Tax Year 2001. The estimated $30 billion non-filer tax gap consisted
of $28 billion for individual income tax non-filing and $2 billion associated with estate and gift taxes.
                                                                                                           Page 6
                  Additional Steps Need to Be Completed to Ensure the Success of
                                 the Service-wide Non-Filer Strategy



Business non-filers are defined as entities that have filing requirements and for which returns
have not been received by the due dates of the returns or extended due dates and are usually
90 days past due. The IRS has traditionally applied resources to work “not liable to file” and “no
longer liable to file” delinquency case resolutions, rather than potentially more productive cases.
This occurred as a consequence of not using third-party information reporting data in Business
Master File (BMF)18 non-filer case creation and selection. As a result, the IRS is unable to
determine the amount of the tax gap attributable to business non-filers.
To rectify this situation, the IRS plans to use a BMF Case Creation Non-filer Identification
Process as part of the Service-wide Non-filer Strategy dealing with business taxpayers in the
latter part of Fiscal Year 2008. The BMF Case Creation Non-filer Identification Process will use
third-party data (i.e., Information Returns Master File Processing,19 Payer Master File,20 and
Combined Annual Wage Reporting21), along with account data, to prioritize BMF and Employee
Plans Master File22 return delinquencies. Management views the BMF Case Creation Non-filer
Identification Process as a tool that will assist in the creation and more effective selection of
BMF non-filer inventory and lead to a more effective allocation of compliance resources.
Although referred to as “third-party” data, the data that will be used in the BMF Case Creation
Non-filer Identification Process are considered by IRS management to be derived from “internal”
data sources.

Data can be purchased from external sources for taxpayer outreach and
education purposes
During our review, we tried to identify any potential new/external data sources that the IRS was
using (or planning to use) for taxpayer outreach and education as part of the Service-wide
Non-filer Strategy to address chronic and unknown non-filers. While IRS management pointed
to the use of external data obtained through the State Reverse File Match Initiative23 and other
State-provided data24 as examples of their use of third-party data to identify non-filers, the


18
   The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
19
   The database containing all information returns transcribed by the IRS. It contains data about both the payer
(filer) as well as data about the payee (recipient of income) from various sources.
20
   The IRS database that consists of a list of business and individual entities filing Form 1099 (this is the information
return series of tax forms). The file also contains information for each payer on penalties proposed and assessed.
21
   This is a document matching program that compares the Employee Wage Information reported by the employer to
the IRS and to the Social Security Administration.
22
   This is a Master File maintained at the Martinsburg Computing Center. This file consists of various types of tax
sheltered Pension/Profit Sharing Plans.
23
   The State Reverse File Match Initiative involves the use of State return tax information to identify Federal return
non-filers.
24
   These were partnering agreements between the IRS and State agencies (at no cost to the IRS) (e.g., the State of
California Franchise Tax Board).
                                                                                                                Page 7
                 Additional Steps Need to Be Completed to Ensure the Success of
                                the Service-wide Non-Filer Strategy



initiatives were limited in scope and without cost/benefit analyses supporting the selection of
initiatives or reasons why such initiatives would be the best use of limited IRS resources.
During this review, the IRS Office of Chief Counsel stated that the IRS can purchase information
from a private company’s database for taxpayer outreach and education purposes, as long as the
information sought is found to be necessary to the mission of the Agency. Such data can be
purchased using appropriated funds under the necessary expense doctrine and following all
applicable rules and regulations.
Although many Federal Government agencies25 participate in purchasing agreements with private
external data sources,26 IRS management stated that they do not currently use, or plan to use, data
purchased from such agreements as part of the Service-wide Non-filer Strategy. However, we
believe that the IRS should explore the costs/benefits of purchasing agreements with private
external data sources and determine whether such contracts would result in a more targeted and
cohesive approach to taxpayer outreach and education, while also helping the IRS to achieve its
mission.

Recommendation
Recommendation 3: To ensure that resources are used in the most effective and efficient
manner to conduct taxpayer outreach and education and to achieve the mission of the IRS, we
recommend that the Deputy Commissioner for Services and Enforcement explore the
costs/benefits of the IRS’ participation in purchasing agreements with private data sources and
determine whether such arrangements could result in a more cost-effective approach to taxpayer
outreach and education as part of the Service-wide Non-filer Strategy to address chronic and
unknown non-filers.
        Management’s Response: IRS management agreed with this recommendation. The
        Director, Collection, SB/SE Division, will explore which private data sources would
        enhance the IRS’ available internal research and determine the costs/benefits of using
        these private data sources.




25
   The Federal Bureau of Investigation, the Drug Enforcement Agency, the Department of Homeland Security,
Immigration and Customs Enforcement, U.S. Customs and Border Protection, Federal Emergency Management
Agency, Transportation Security Administration, the Department of State, and the Social Security Administration
participate in contracts with information resellers.
26
   The term “information resellers” refers to private businesses that vary in many ways but have in common
collecting and aggregating personal and business-related information from multiple sources and making it available
to their customers. Information resellers have amassed an extensive amount of such information and supply it to
customers in both the Government and the private sector.
                                                                                                           Page 8
                  Additional Steps Need to Be Completed to Ensure the Success of
                                 the Service-wide Non-Filer Strategy



                                                                                                     Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to evaluate the progress the SB/SE Division has made in
identifying non-filers1 and determining what potential new data sources for detecting non-filers
and other forms of underreporting have been investigated that could assist in that effort.
The scope of our work was limited because Service-wide non-filer outcome and performance
measures were not established, and there was no systemic Service-wide tracking method in place
to monitor non-filer cases by the end of our field work.
To accomplish our objective, we:
I.       Determined if management could ascertain the effectiveness or potential effectiveness of
         the current SB/SE Division projects in identifying non-filers.
         A. Attempted to identify the potential numbers of non-filer cases and the dollars
            involved that were detected through the various non-filer projects.
             1. Contacted the management and staff to obtain information on their non-filer
                projects.
             2. Conducted interviews with SB/SE Division management and analysts to
                determine how the non-filer information identified through their projects was used
                (or will be used) and if measurable results were achieved.
             3. Conducted interviews with SB/SE Division management and analysts to
                determine if non-filer information identified through their projects was not used
                and determined why; e.g, lack of resources to work cases, low-risk, etc.
         B. Determined if the SB/SE Division could point to any measurable decline in the
            number of non-filers due to actions taken by the IRS based on their non-filer projects.
             1. Conducted interviews with SB/SE Division management and analysts to obtain
                information and documentation of the effectiveness of the non-filer projects.
             2. Determined how the SB/SE Division tracks and measures project results.
             3. Researched IRS, Government Accountability Office, and TIGTA reports to
                identify any findings/recommendations made with respect to non-filers.

1
 Individual non-filers are taxpayers legally required to file, for whom returns have not been filed by the due dates or
extended due dates of the returns. Business non-filers are entities that have filing requirements, for which returns
have not been received by the due dates or extended due dates of the returns, and are usually 90 days past due.
                                                                                                               Page 9
             Additional Steps Need to Be Completed to Ensure the Success of
                            the Service-wide Non-Filer Strategy



II.   Determined what potential new data sources for identifying non-filers have been
      investigated and the likelihood of their use in the SB/SE Division’s Non-filer Strategy.
       A. Held discussions with SB/SE Division management and analysts to obtain
          information regarding new data sources and their potential for identifying
          non-filers.
       B. Conducted interviews with SB/SE Division Research function staff to obtain
          information regarding new data sources and their potential uses to identify
          non-filers.
       C. Determined if any of the individuals in Steps II.A. and II.B. had concerns regarding
          the use of these new data sources by the IRS to identify non-filers (e.g, not cost
          effective, not reliable).




                                                                                         Page 10
              Additional Steps Need to Be Completed to Ensure the Success of
                             the Service-wide Non-Filer Strategy



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Bernard Kelly, Audit Manager
Kathleen McFadden, Lead Auditor
Paul R. Baker, Senior Auditor
Margaret Filippelli, Senior Auditor




                                                                                      Page 11
              Additional Steps Need to Be Completed to Ensure the Success of
                             the Service-wide Non-Filer Strategy



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 12
   Additional Steps Need to Be Completed to Ensure the Success of
                  the Service-wide Non-Filer Strategy



                                                    Appendix IV


Management’s Response to the Draft Report




                                                           Page 13
Additional Steps Need to Be Completed to Ensure the Success of
               the Service-wide Non-Filer Strategy




                                                        Page 14
Additional Steps Need to Be Completed to Ensure the Success of
               the Service-wide Non-Filer Strategy




                                                        Page 15
